Case No. 20-337
Supreme Court of the United States
ROSEMARY ANN LYNN,
Petitioner,
v.
ANDREW GEORGE BROWN, III, et al.
On Petition for Writ of Certiorari
CERTIFICATE OF COMPLIANCE
On behalf of Andrew George Brown III; Trust Company of
Oklahoma and its employees Lesa Creveling, Melissa
Taylor and Emily Crain; Purview Life and its employees
Mary Jean Bagwell-Hendershott and Susan Boyd;
Kimberly Biedler Schutz; Randall Allen Gill; and Robyn
Owens

Randall A. Gill, Oklahoma Bar Assoc. #10309
2512 East 21st Street
Tulsa, Oklahoma 74114-1706
(918) 747-1958
randall@gillfirm.law

CERTIFICATE OF COMPLIANCE
Pursuant to Rule 33.2, I hereby certify the above and foregoing Brief in
Opposition was within the 40-page limit.
Respectfully submitted,

s/Randall A. Gill
Randall A. Gill, Oklahoma Bar Assoc. #10309
2512 East 21st Street
Tulsa, Oklahoma 74114-1706
Phone: (918) 747-1958
Email: randall@gillfirm.law
Attorney for Andrew George Brown III; Trust
Company of Oklahoma and its employees Lesa
Creveling, Melissa Taylor and Emily Crain;
Purview Life and its employees Mary Jean
Bagwell-Hendershott and Susan Boyd; Kimberly
Biedler Schutz; Randall Allen Gill; and Robyn
Owens

